OIG Investigative Reports, New Orleans, Louisiana - 08/31/2011 - Betty Jefferson Sentenced in Federal Court
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of LOUISIANA
August 31, 2011
BETTY JEFFERSON SENTENCED IN FEDERAL COURT
BETTY JEFFERSON, age 72, a former elected tax assessor for the 4th Municipal District of Orleans Parish, and a resident of New Orleans, Louisiana, was sentenced today by U.S. District Judge Ivan L.R. Lemelle to fifteen (15) months of home confinement and five years of supervised release. Additionally, JEFFERSON was ordered to pay $604,581 in restitution to the state. On February 25, 2010, JEFFERSON had entered a guilty plea to a Superseding Bill of Information that charged her with a conspiracy to commit Mail Fraud, Aggravated Identity Theft, Money Laundering, and Tax Evasion. JEFFERSON has agreed to forfeit her house to the government.
According to the court documents supporting JEFFERSON’s guilty plea, JEFFERSON, her now-deceased brother, MOSE JEFFERSON, her daughter, ANGELA COLEMAN, who also has entered a guilty plea, former New Orleans City Councilmember and State Representative RENEE GILL PRATT, and others participated in a scheme to obtain money and property for their financial and political benefit both directly and through the use of various non-profit entities and for-profit companies, as well as the elected offices of the State Representative’s Office for District 91, the City Councilmember’s Office for District B, and the Office of Tax Assessor for the 4th Municipal District of Orleans Parish and Mose Jefferson.
As part of a plea/cooperation agreement with the United States, BETTY JEFFERSON testified twice in the matter of United States v. Renee Gill Pratt. JEFFERSON’s co-conspirator, RENEE GILL PRATT, was convicted last month by a federal jury of Conspiracy to Violate the Racketeering Influenced and Corrupt Organizations Act (“RICO”).
BETTY JEFFERSON faced a possible maximum sentence of five (5) years imprisonment, a $250,000 fine and three (3) years supervised release.
The case was investigated by the Federal Bureau of Investigation, the Internal Revenue Service, Criminal Investigation Division, the United States Department of Education, Office of Inspector General and the United States Department of Housing and Urban Development, Office of Inspector General. The case is being prosecuted by Assistant U. S. Attorneys Daniel P. Friel, Brian P. Marcelle, and Fred P. Harper, Jr.
Top
Printable view
Last Modified: 09/08/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov